Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





  USE OF THE DEPARTMENTAL 

    ALERT LIST BY HRSA 





                    Daniel R. Levinson 

                     Inspector General 


                       May 2006

                     OEI-02-03-00011

               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and to promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
Δ       E X E C U T I V E                                          S U M M A R Y                    



                               OBJECTIVE
                               To determine the extent to which the Health Resources and Services
                               Administration (HRSA) adheres to policies governing the departmental
                               Alert List.


                               BACKGROUND
                               The Alert List is posted on the Department of Health and Human
                               Services (HHS) Intranet site for all agencies that award grants.
                               According to the Awarding Agency Grants Administration Manual
                               (AAGAM), if an awarding agency has concerns about a grantee due to
                               the grantees’ inexperience in handling Federal funds, financial
                               instability, inadequate management systems, history of poor
                               programmatic performance, or for other reasons, the agency may place
                               the grantee on the Alert List. The purpose of the Alert List is to
                               safeguard HHS funds by alerting other agencies to these potential risks.
                               Being on the Alert List does not automatically disqualify a grantee from
                               receiving an award.

                               HRSA is expected to follow the policies governing the Alert List that are
                               found in HHS’s “Awarding Agency Grants Administration Manual”
                               (AAGAM). Accordingly, HRSA is expected to place on the Alert List
                               grantees that are designated as high risk, including those that have
                               special award conditions attached to the grant. Special award
                               conditions address a specific grantee vulnerability and may include, for
                               example, drawdown restrictions or more frequent grantee reporting.
                               HRSA is also responsible for checking the Alert List prior to making an
                               award and for consulting with the other agency(s) that initially placed
                               the grantee on the Alert List. HRSA is further expected to monitor
                               grantees on the Alert List and take required actions when it attaches a
                               special award condition to a grant. Additionally, HRSA is responsible
                               for removing grantees from the Alert List or justifying retaining a
                               grantee whose name appears on the Alert List for more than 2 years.

                               In fiscal year 2002, HRSA awarded a total of $34 million to grantees
                               that it had placed on the Alert List and another $60.5 million to
                               grantees that were placed on the Alert List by other agencies.

                               To determine the extent to which HRSA adheres to policies governing
                               the Alert List, we reviewed the files of HRSA grantees on the
                               March 24, 2003, Alert List. We requested the files of 62 HRSA grantees
                               placed on the Alert List by HRSA, the National External Audit Review


O E I - 0 2 - 0 3 - 0 0 0 11   USE   OF THE   D E PA R T M E N TA L A L E R T L I S T   BY   HRSA       i
E X E C U T I V E                                  S U          M M A R Y

                                Center, or another agency. HRSA provided 56 files for our review. In
                                these grantee files, we looked for evidence that grants officers followed
                                each of the policies governing the Alert List. We also conducted
                                structured interviews with four grants officers and two grants officials
                                in HRSA.


                                FINDINGS
                                HRSA does not consistently follow Alert List policies. We found that
                                HRSA does not consistently follow Alert List policies including placing,
                                checking, consulting, monitoring, and justifying retaining grantees on
                                the Alert List.
                                HRSA does not consistently place grantees on the Alert List. Grants officers are
                                expected to place a grantee on the Alert List when they designate a grantee
                                as high risk or when they attach a special award condition to a grant, even
                                if the grantee has already been placed on the Alert List by another agency.
                                Grants officers designated a total of 6 of the 56 grantees as high risk. They
                                did not place two of these six grantees on the Alert List. Grants officers also
                                attached at least 1 of the special award conditions as listed in the AAGAM
                                to the grants of 25 of the 56 grantees, but placed only 4 of them on the Alert
                                List.
                                HRSA does not consistently check the Alert List nor accurately document
                                checking it. Grants officers are expected to check the Alert List prior to an
                                award. Twenty-four of the fifty-six files reviewed had no evidence that the
                                grants officer checked the Alert List. Twenty-six of the remaining
                                thirty-two files contained a copy of a standardized electronic checklist that
                                indicated whether or not the grantee was on the Alert List. Of these
                                26 checklists, 14 indicated the grantee was not on the Alert List when the
                                opposite was true.
                                HRSA does not regularly consult with other agencies to obtain information about
                                grantees. Grants officers are responsible for consulting with the agency that
                                placed the grantee on the Alert List to obtain information about the grantee.
                                In the files of the 45 grantees placed on the Alert List by another agency, we
                                found only 2 instances of consultation documented. In our discussions with
                                grants officers, none reported coordinating with agencies that place grantees
                                on the Alert List.
                                HRSA does not consistently document certain monitoring activities for Alert List
                                grantees. Grants officers are expected to complete certain monitoring
                                activities when they attach a special award condition to a grant. Grants
                                officers attached special award conditions to 25 of the 56 grantees. We
                                found that none of the files for these 25 grantees included transmittal

 O E I - 0 2 - 0 3 - 0 0 0 11   USE   OF THE   D E PA R T M E N TA L A L E R T L I S T   BY   HRSA          ii
E X E C U T I V E                                     S U          M M A R Y

                               letters to the grantees indicating the corrective actions required, the time
                               period for correction, and a description of the consequences of not
                               completing actions required. Additionally, 9 of the 15 files of grantees that
                               had payment-related special award conditions did not include notification
                               to the Payment Management System.
                               HRSA does not provide justification for retaining grantees whose names appear
                               on the Alert List for more than 2 years. Grants officers are expected to provide
                               justification to the Office of Grants when retaining a grantee on the Alert
                               List for more than 2 years. At the time of the file review in August 2003,
                               seven grantees that HRSA placed on the Alert List had been on the list for
                               longer than 2 years. None of these files had justifications to support these
                               grantees remaining on the Alert List.
                               Grants officers do not use the information on the Alert List to make
                               grant decisions and some report concerns about the information on
                               the Alert List. Grants officers and grants officials reported that decisions
                               about specific grants are based on their own judgments and not from
                               information on the Alert List. One grants officer noted that they put
                               special award conditions on a grant based on their own concerns, and one
                               grants official further noted that the decision to deny a grant is based on
                               their own reasons, not on whether the grantee is on the Alert List.

                               In our discussions, three of the four grants officers reported that the
                               Alert List is “not at all useful.” Generally, these grants officers
                               explained that the Alert List does not provide current information and
                               that the information on the Alert List is not useful for making decisions
                               about grantees. Grants officials also reported that the Alert List is not
                               always useful, in part because they do not always know when the Alert
                               List is posted. Our review of the Alert List also found that it did not
                               always have complete information.


                               RECOMMENDATIONS
                               We determined that HRSA staff do not consistently adhere to policies
                               governing the use of the Alert List. This lack of consistency makes it
                               difficult to ensure that a grantee’s risk of programmatic and/or financial
                               failure is communicated to all agencies that award grants and that HHS
                               funds are appropriately safeguarded. Although grants officers note that
                               the Alert List has a number of limitations, it is critical for each agency
                               that awards grants to adhere to HHS policies to make the Alert List an
                               effective means of conveying grantee risk.

                               This review was conducted at a time when HRSA was consolidating and
                               centralizing its grants management functions and implementing an

O E I - 0 2 - 0 3 - 0 0 0 11   USE   OF THE   D E PA R T M E N TA L A L E R T L I S T   BY   HRSA       iii
E X E C U T I V E                                 S U           M M A R Y



                                 automated grants management system. These changes may bring
                                 greater consistency to its grants management functions and better
                                 position HRSA to incorporate the following recommendations.
                                 Specifically, we recommend that HRSA:
                                 Ensure that grants officers follow Alert List policies. HRSA needs to make
                                 the Alert List a higher profile issue and stress that grants staff need to
                                 follow Alert List policies. HRSA needs to ensure that grants officers and
                                 grants officials follow policies for placing grantees on the Alert List,
                                 checking the Alert List, consulting with the agency that placed the grantee
                                 on the Alert List, monitoring grantees with special award conditions, and
                                 removing or retaining Alert List grantees when appropriate. HRSA also
                                 needs to ensure consistency in placing grantees on the Alert List by
                                 providing guidance on high risk designations and special award
                                 conditions.
                                 Develop methods to ensure that grants officers follow Alert List policies.
                                 HRSA should develop methods to ensure that grants officers adhere
                                 to Alert List policies.
                                 o 	 Currently, grants officers have a checklist that includes checking
                                       the Alert List to determine whether the grantee is on the Alert
                                       List. HRSA may consider revising this checklist to include all
                                       Alert List policies and requiring grants officers to complete it for
                                       each grantee.
                                 o 	 HRSA may consider implementing an internal file review to
                                       ensure that grants officers are documenting that they are
                                       following Alert List policies and using the Alert List
                                       appropriately.
                                 o 	 HRSA may implement a system to notify grants officers when
                                       2-year time periods expire.
                                 o 	 HRSA may consider providing additional guidance to grants
                                       officers and their staffs about the importance of using the Alert
                                       List and the need to adhere to policies.


                                 AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                                 RESPONSE
                                 HRSA’s comments on our draft report address only the first finding of
                                 our report and do not respond to our specific recommendations.
                                 Specifically, HRSA notes that both HRSA and the Department
                                 recognize circumstances where it is appropriate to apply conditions to
                                 ensure short-term compliance or to address minor issues without

  O E I - 0 2 - 0 3 - 0 0 0 11   USE   OF THE   D E PA R T M E N TA L A L E R T L I S T   BY   HRSA           iv
                               placing grantees on the departmental Alert List. HRSA states that OIG
                               may not have been aware of the various types of conditions which have
                               been previously employed and which are now recognized in Department
                               policy. In our response to HRSA’s comments, we clarify several aspects
                               of our analysis. We note that our analysis took into account more recent
                               Department policies on special conditions that were not in effect during
                               most of our fieldwork, and that the design of our study eliminated
                               situations that do not require a high risk designation and included only
                               those special award conditions that reflect more serious situations
                               requiring placement on the Alert List. We also note that our review
                               showed that the instances in which HRSA attached a special award
                               condition and did not place the grantee on the Alert List were not to
                               ensure short-term compliance or address an innocuous situation.




O E I - 0 2 - 0 3 - 0 0 0 11   USE   OF THE   D E PA R T M E N TA L A L E R T L I S T   BY   HRSA   v
Δ   T A B L E          O F           C O N T E N T S                              




         EXECUTIVE SUMMARY .....................................i




         INTRODUCTION ........................................... 1




         FINDINGS ................................................. 8

                   HRSA does not consistently follow Alert List policies . . . . . . . . . . . 8 


                   Several factors may account for HRSA not consistently following 

                   Alert List policies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 



         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12 

                   Agency Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 


                   Office of Inspector General Response. . . . . . . . . . . . . . . . . . . . . . . 13 




         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 

                   A: Code of Federal Regulations . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 


                   B: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17 





         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21 

   Δ                   I N T R O D U C T I O N                                               



                               OBJECTIVE
                               To determine the extent to which the Health Resources and Services
                               Administration (HRSA) adheres to policies governing the departmental
                               Alert List.


                               BACKGROUND
                               The Alert List is posted on the Department of Health and Human
                               Services’ (HHS) Intranet site for all agencies that award grants.
                               According to the Awarding Agency Grants Administration Manual
                               (AAGAM), if an awarding agency has concerns about a grantee due to
                               the grantees’ inexperience in handling Federal funds, financial
                               instability, inadequate management systems, history of poor
                               programmatic performance, or other reasons, the agency may place the
                               grantee on the Alert List. The purpose of the Alert List is to safeguard
                               HHS funds by alerting other agencies to these potential risks. Being on
                               the Alert List does not automatically disqualify a grantee from receiving
                               an award.
                               HRSA Grants Management Process
                               HRSA works to improve and extend life for people living with Human
                               Immunodeficiency Virus and/or Acquired Immune Deficiency Syndrome,
                               provide primary health care to medically underserved people, serve
                               women and children through State programs, and train a health
                               workforce that is both diverse and motivated to work in underserved
                               communities.1
                               Within HRSA, grants are administered by the Division of Grants
                               Management Operations housed within the Office of Management and
                               Program Support. At the time of this inspection, HRSA was in the
                               process of consolidating its grants management functions under a single
                               office and starting to implement an automated grants management
                               system. Within the consolidated grants office, there were four grants
                               management officers (hereinafter “grants officers”) supervised by the
                               Director of the Division of Grants Management Operations. Grants
                               officers are primarily responsible for the business and other
                               nonprogrammatic areas of grant award and administration. A grants



                               1 Health Resources and Services Administration, http://www.hrsa.gov/default.htm, accessed
                                07/08/05.



O E I - 0 2 - 0 3 - 0 0 0 11   USE   OF THE   D E PA R T M E N TA L A L E R T L I S T   BY   HRSA                     1
    I N T R O D                         U C T         I O N

                                            officer must be appointed for each grant award, but an individual may
                                            serve in that capacity for multiple awards.

                                            HRSA grants are awarded and renewed annually in an ongoing process
                                            throughout the year. In fiscal year 2002, HRSA awarded $33.8 million
                                            to 15 grantees that it had placed on the Alert List and another
                                            $61.4 million to 47 grantees that other agencies placed on the Alert List.
                                            Successful grant proposals receive a Notice of Grant Award, which acts
                                            as the official agreement between the grantee and HRSA. The Notice of
                                            Grant Award includes specific requirements for each grantee such as
                                            spending caps, timelines, documentation requirements, and submission
                                            deadlines. The following primer defines a number of key terms about
                                            the grants management process as it relates to the Alert List.


                        Primer on Grants Management
                               Awarding Agency. The awarding agency is the agency that awards the grant. To do this,
                               the awarding agency reviews the merits of each proposal and funds the grantee to carry
                               out program objectives.

                               Placing Agency. The placing agency is the agency that initiates placement of the grantee
                               on the Alert List. The National External Audit Review Center can also indicate that a
                               grantee should be considered for placement on the Alert List.

                               Grantees on the Alert List. The Alert List identifies grantees that may have one or
                               several issues of concern to HHS. Examples of issues may include:

                               o a history of poor performance on previous or existing awards,
                               o inexperience in handling of Federal funds,
                               o financial instability,
                               o inadequate management systems,
                               o material noncompliance with the terms and conditions of previous awards, and/or
                               o other special circumstances.

                               High Risk/Special Award Conditions. Special award conditions are attached to a grant
                               award to address a specific grantee vulnerability. A high risk designation by the
                               awarding agency is a prerequisite for the use of special award conditions. Examples of
                               special award conditions may include requiring more frequent grantee reporting or
                               limiting the monthly amount a grantee can draw from its total grant award.

                               National External Audit Review Center. The National External Audit Review Center,
                               within the Office of Inspector General (OIG), is the HHS focal point for receipt of grantee
                               audits. As part of its review of these audits, the National External Audit Review Center
                               may issue an Alert. This Alert, which is sent to agency Audit Liaison contacts and the
                               Office of Grants, indicates the nature of the problem and states that the entity should be
                               considered for placement on the Alert List.



O E I - 0 2 - 0 3 - 0 0 0 11                USE   OF THE   D E PA R T M E N TA L A L E R T L I S T   BY   HRSA               2
        I N T R O D            U C T           I O N 





                                Grants officers may also attach special award conditions to a grant to
                                address a specific grantee vulnerability. Grants officers are responsible
                                for monitoring the progress of the grant project and the grantee’s
                                adherence to these requirements and to any special award conditions.
                                Alert List and High Risk/Special Award Conditions
                                The Alert List is maintained by HHS’s Office of Grants. The Alert List
                                includes the name and address of the grantee, the date the grantee was
                                placed on the Alert List, the agency that initiated placement of the
                                grantee on the Alert List (the “placing agency”), a contact person at the
                                placing agency, and often a brief description of the reason the grantee
                                was placed on the Alert List.2 HHS’s policies governing the use of the
                                Alert List are found in Chapter 2.01.101 of the AAGAM and part 2,
                                section 01 of the Grants Policy Directive (GPD) 2.01.

                                According to the AAGAM, each awarding agency has an affirmative
                                responsibility both to place grantees designated high risk on the Alert
                                List and to remove them in a timely manner. The awarding agency
                                may designate a grantee high risk/special award conditions if it has
                                concerns about the applicant’s/recipients ability to meet performance
                                expectations and accountability requirements. According to the
                                AAGAM, this concern may be due to the grantees’ inexperience in
                                handling of Federal funds, history of poor programmatic performance on
                                previous or existing awards, financial instability, inadequate
                                management systems, or for other reasons.
                                An awarding agency may place special award conditions on a grantee to
                                address its concerns.3 According to the AAGAM, special award
                                conditions are used as a means of protecting the Federal Government’s
                                interests and trying to effect positive change in a recipient’s
                                performance or compliance. The AAGAM specifies that special award
                                conditions, defined as conditions that are “more restrictive than those
                                specified by regulations (e.g., by 45 CFR parts 74 or 92),” may include
                                one or more of the following; however, this list is not all-inclusive:
                                o 	 Use of a reimbursement payment method rather than advance
                                      funding.


                                2 The Office of Grants maintains the Alert List and is responsible for placing the grantee on
                                  the Alert List upon recommendation from the awarding agency. For the purposes of this
                                  report, we refer to the placing agency as the agency that recommends the placement to the
                                  Office of Grants.
                                3 HHS’s regulatory basis for imposing special conditions is found in 45 CFR part 74.14 and
                                  45 CFR part 92.12. (See Appendix A.)



O E I - 0 2 - 0 3 - 0 0 0 11    USE   OF THE   D E PA R T M E N TA L A L E R T L I S T   BY   HRSA                          3
        I N T R O D 
U C T                    I O N

                               o 	 Use of the deductive method of accounting for program income 

                                     (where the additive alternative would ordinarily apply or the

                                     matching alternative might be appropriate). 

                               o 	 Financial or progress reporting more frequently than quarterly.

                               o 	 The need for awarding agency prior approval of a cost/activity that
                                     ordinarily does not require such approval.

                               The AAGAM further specifies that special award conditions cannot be
                               applied in the absence of a high risk designation. Additionally, the GPD
                               states that if special award conditions are included in an award, the
                               awarding agency is required to designate the grantee as “high risk/
                               special award conditions” and notify the Office of Grants for inclusion on
                               the Alert List.
                               Awarding Agency Responsibilities
                               Awarding agencies have the responsibility to do the following regarding
                               the Alert List: (1) place grantees on the Alert List; (2) check the Alert
                               List; (3) consult with the agency that placed the grantee on the Alert
                               List, (4) monitor grantees when special award conditions are attached to
                               the grant, and; (5) remove grantees from the Alert List in a timely
                               manner. Specific Alert List responsibilities are as follows:

                               Place. Awarding agencies are responsible for placing on the Alert List
                               grantees that they have designated high risk/special award conditions.
                               To place a grantee on the Alert List, the awarding agency notifies the
                               Office of Grants. The National External Audit Review Center may also
                               indicate that a grantee be considered for placement on the Alert List
                               based on adverse findings in a grantee’s audit. There may be several
                               agencies that place the same grantee on the Alert List.
                               Check. Awarding agencies are responsible for checking the Alert List
                               prior to awarding a grant. Upon review of the Alert List and
                               consideration of the basis for the high risk/special award condition
                               designation or issuance of an OIG Alert, an awarding agency must
                               determine whether it will independently designate the grantee as high
                               risk/special award conditions.

                               Consult. If the awarding agency determines that a grantee has been
                               placed on the Alert List by another agency, the agency must consider
                               whether it also should designate the grantee as high risk and include
                               special award conditions in the award. This decision should be made
                               following consultation with the agency(s) that made the designation as
                               it appears on the Alert List to ensure that it is still current and the
                               present situation warrants the designation.


O E I - 0 2 - 0 3 - 0 0 0 11   USE   OF THE   D E PA R T M E N TA L A L E R T L I S T   BY   HRSA     4
       I N T R O D             U C T           I O N 


                                Monitor. If special award conditions are attached to the grant, the
                                awarding agency is responsible for taking several actions. Specifically,
                                the agency must notify the grantee by transmittal letter of the special
                                award condition (but not the placement of the grantee on the Alert List).
                                The transmittal letter explains the effect of the high risk designation,
                                indicates the corrective actions required, and the time period for
                                correction, among other things. If a special award condition relates to
                                payment, the awarding agency is responsible for notifying the Division
                                of Payment Management when it is imposed and when it is removed.4
                                Remove. If an awarding agency places a grantee on the Alert List, it is
                                also responsible for notifying the Office of Grants when it is appropriate
                                to remove the grantee from the Alert List. Generally, grantees should
                                not remain on the Alert List for more than 2 years. If the grantee is on
                                the Alert List for more than 2 years, the agency that placed the grantee
                                is required to provide justification to the Office of Grants.

                                Additionally, according to GPD 3.06, awarding agencies are expected to
                                create and maintain files that allow for a third party to follow a paper
                                trail of all decisions made and actions taken throughout the grant
                                cycle.5 Grants officers are also expected to maintain the official grant
                                file and to ensure that the contents of all files are current and can be
                                easily identified and accessed.


                                METHODOLOGY
                                To determine the extent to which HRSA adheres to Alert List policies,
                                we reviewed HHS policies governing the Alert List. We then reviewed
                                files of grantees on the Alert List and conducted interviews with key
                                agency staff.
                                Grantee Selection
                                Based on the departmental Alert List published on the Intranet
                                March 24, 2003, we identified 15 grantees to whom HRSA awarded
                                grants and also placed on the Alert List. This included 13 grantees that




                                4 The Payment Management System is the centralized grants payment and cash
                                 management system operated by the Division of Payment Management within the HHS’s
                                 Program Support Center. The Payment Management System accomplishes all payment-
                                 related activities for HRSA and other agencies from the time of award through closeout of
                                 a grant.
                                5 GPD 3.06 C(1) and GPD 3.06 C(2)(b)(2)(c).




O E I - 0 2 - 0 3 - 0 0 0 11    USE   OF THE   D E PA R T M E N TA L A L E R T L I S T   BY   HRSA                       5
        I N T R O D            U C T           I O N

                                received HRSA grants in 2002.6 Even though a grantee may no longer
                                be funded, as long as it remains on the Alert List and HRSA is noted as
                                the placing agency, an awarding agency may contact HRSA to obtain
                                information on the circumstances that led to HRSA placing that grantee
                                on the Alert List and any current information on the grantee.

                                To find the HRSA grantees that another agency placed on the Alert
                                List, we compared the grantees on the March 24, 2003, Alert List with a
                                list of all HRSA grantees in fiscal year 2002.7 In doing so, we identified
                                an additional 47 grantees that had been placed by another agency, for a
                                total of 62 HRSA grantees on the Alert List. Note that this inspection
                                looks only at grantees that are on the March 24, 2003, Alert List. It
                                does not determine the total number of grantees that HRSA should
                                have placed on the Alert List.
                                File Review
                                We requested the complete grant file for each of the 62 HRSA grantees
                                on the Alert List. HRSA provided files for a total of 56 grantees. We
                                requested the other six files several times over an 8-month period;
                                however, HRSA never made these six files available for review.

                                We conducted an onsite file review in August 2003 of the 56 files that
                                were provided by HRSA. We reviewed these files for evidence that each
                                Alert List policy was followed. We considered all documentation as
                                evidence, including file checklists, e-mails, telephone logs, notes to the
                                file, and other informal notation, as well as standard documentation
                                such as Notices of Grant Award, grantee applications, technical reviews,
                                and audits. We limited our review to 5 years of documentation.

                                Table 1 shows the number of files of HRSA grantees that we requested
                                and reviewed, by the agency that had initiated their placement. In
                                total, we reviewed 56 files. In some cases, our analysis is based on the
                                11 grantees that HRSA placed on the Alert List and the 45 grantees
                                that were placed on the Alert List by another agency and not HRSA.8




                                6 Two additional grantees on the Alert List did not receive HRSA grants in 2002.

                                7 This list was obtained from HHS’s Tracking Accountability in Government Grants
                                 (TAGGS) database. The TAGGS database tracks all grants awarded by the Department.

                                8 Note that six files were not made available for review. Four of these files were from

                                 HRSA grantees placed on the Alert List by HRSA and two of these files were HRSA
                                 grantees placed on the Alert List either by another agency or indicated for placement by
                                 NEARC.



O E I - 0 2 - 0 3 - 0 0 0 11    USE   OF THE   D E PA R T M E N TA L A L E R T L I S T   BY   HRSA                          6
I N T R O D                      U C T   I O N 





                                         Table 1: HRSA Alert List Grantees on the Alert List, By Placing Agency

                                                                                                                             Grant Files
                                                                                                              Grant Files   Provided for
                                         Placing Agency                                                       Requested          Review
                                         HRSA Only                                                                    10                 7
                                         HRSA and National External Audit                                              5                 4
                                         Review Center
                                         National External Audit Review Center                                         2                 0
                                         and Another Agency
                                         National External Audit Review Center                                        38             38
                                         Only
                                         Other Agency Only                                                             7                 7
                                       Total                                                                          62             56
                                     Source: March 24, 2003, TAGGS Database.

                                     Note: The National External Audit Review Center does not place grantees on the Alert List; it
                                     issues an alert to agency liaisons and the Office of Grants that states that the entity should be
                                     considered for placement on the Alert List.



                                         Structured Interviews
                                         We conducted structured interviews with four grants officers. We also
                                         interviewed one senior member of HRSA’s Division of Grants
                                         Management Operations, who is responsible for supervising grants
                                         officers, and one senior member of the Office of Financial Policy and
                                         Oversight, who is responsible for notifying the HHS Office of Grants
                                         when HRSA places a grantee on the Alert List and removes a grantee
                                         from the Alert List. These additional respondents will hereinafter be
                                         referred to as “grants officials.”

                                         Standards
                                         Our review was conducted in accordance with the “Quality Standards
                                         for Inspections” issued by the President’s Council on Integrity and
                                         Efficiency and the Executive Council on Integrity and Efficiency.




  O E I - 0 2 - 0 3 - 0 0 0 11           USE   OF THE   D E PA R T M E N TA L A L E R T L I S T   BY   HRSA                                  7
      Δ                  F I N D I N G S 



             HRSA does not consistently follow Alert List              We found that HRSA does not
                                                policies               consistently follow Alert List
                                                                       policies, including placing, checking,
                                 consulting, monitoring, and justifying retaining grantees on the Alert List.
                                 HRSA does not consistently place grantees on the Alert List
                                 We reviewed the files of 56 grantees that were placed on the Alert List
                                 either by HRSA or another awarding agency. According to the AAGAM,
                                 grants officers are responsible for placing on the Alert List grantees that
                                 are designated as high risk. Grants officers designated a total of 6 of
                                 the 56 grantees as high risk. They did not place two of these six
                                 grantees on the Alert List.

                                 The AAGAM also states that a high risk designation is a prerequisite
                                 for special award conditions. Grants officers attached at least 1 of the
                                 special award conditions as listed in the AAGAM to the grants of 25 of
                                 the 56 grantees. Grants officers designated only 6 of these 25 grantees
                                 as high risk and placed only 4 of them on the Alert List.

                                 In addition, grants officers are expected to notify the Office of Grants in
                                 writing to place a grantee on the Alert List. They placed a total of 11 of
                                 the 56 grantees on the Alert List. However, there was evidence of
                                 notification in only 1 of these 11 files.

                                 Our discussions with HRSA grants officers confirm that they have
                                 different understandings of when to place a grantee on the Alert List
                                 and how to designate a grantee as high risk. One grants officer, for
                                 example, would place grantees with financial liability or worsening
                                 quality of services provided. Another grants officer would place
                                 grantees without protocols or accounting systems, those with safety
                                 issues, or those for whom more frequent submission of required
                                 documents is needed. When we asked about the process to designate a
                                 grantee as high risk, one grants officer noted that instead of a formal
                                 designation, HRSA “would rather refer to these as risky behaviors.”
                                 The other grants officers reported different procedures they follow when
                                 designating a grantee as high risk (as the first step in the process that
                                 should lead to placement on the Alert List), which included conducting
                                 site visits, obtaining supporting documentation, or notifying the
                                 grantee.

                                 Additionally, although the AAGAM lists four specific special award
                                 conditions, grants officers have different understandings of what they
                                 consider special award conditions that could be used to respond to a
                                 grantee that was designated high risk. All grants officers agreed that

O E I - 0 2 - 0 3 - 0 0 0 11     USE   OF THE   D E PA R T M E N TA L A L E R T L I S T   BY   HRSA      8
             F      I N D I N G      S

                               drawdown restriction is a type of special award condition. However,
                               other than drawdown restriction, their responses varied, and included
                               such actions as requiring a corrective action plan, more frequent
                               reporting, or technical assistance in response to a high risk designation.
                               HRSA does not consistently check the Alert List nor accurately document
                               checking it
                               The AAGAM states that grants officers are responsible for checking the
                               Alert List prior to granting an award. Twenty-four of the fifty-six files
                               reviewed had no evidence that the grants officer checked the Alert List.
                               Twenty-six of the remaining thirty-two files contained a copy of a
                               standardized electronic checklist that included a yes/no checkbox
                               indicating that the grantee was on the Alert List. Another six files had
                               evidence that the Alert List was checked in other types of checklists
                               that are used to record specific program-related activities and grant
                               award processes.

                               In addition, when we reviewed the 26 files that had copies of electronic
                               checklists, we found that the checklist information was not always
                               accurate. Fourteen of the twenty-six checklists indicated the grantee
                               was “not appearing on the Alert List” when the grantee was in fact on
                               the Alert List.9
                               HRSA does not regularly consult with other agencies to obtain information
                               about the grantee
                               As stated in the AAGAM, the grants officers must consider whether
                               they also should designate the grantee as high risk and include special
                               award conditions in the award. This decision should be made following
                               consultation with the agency(s) that made the designation as it appears
                               on the Alert List to ensure that it is still current and the present
                               situation warrants the designation.
                               We found little evidence that HRSA consults with other agencies that
                               place grantees on the Alert List. Other agencies placed 7 HRSA
                               grantees on the Alert List and the National External Audit Review
                               Center indicated 38 HRSA grantees for placement on the Alert List. We
                               found no documentation of any consultation in the files of the seven
                               grantees that other agencies placed on the Alert List. Similarly, we
                               found evidence of consultation in 2 of the files of the 38 grantees that



                               9 This analysis is based on a comparison of the dates the grantee was placed on the Alert

                                  List with dates on the electronic checklist. We were unable to conduct a similar analysis
                                  for the files that had other types of checklists because they only indicated whether the
                                  Alert List was checked, not whether the grantee was found on the Alert List.



O E I - 0 2 - 0 3 - 0 0 0 11   USE   OF THE   D E PA R T M E N TA L A L E R T L I S T   BY   HRSA                             9
        F      I N D I N G 
S

                               the National External Audit Review Center indicated for placement on
                               the Alert List.

                               In our discussions with grants officers, none reported coordinating with
                               the placing agency or the National External Audit Review Center. Only
                               one grants official reported that a phone call would be made to find out
                               why the grantee was placed on the Alert List.
                               HRSA does not consistently document certain monitoring activities for Alert
                               List grantees
                               The awarding agency is expected to complete certain monitoring
                               activities when it attaches a special award condition to a grant.
                               According to the AAGAM, these activities include notifying the grantee
                               of the special award conditions in a letter that indicates the corrective
                               actions required, the time period for correction, and a description of the
                               consequences of not completing the actions required. The awarding
                               agency is also responsible for notifying the Director of the Payment
                               Management System if a special award condition relating to payment
                               was attached to the grant.

                               Grants officers attached special award conditions as listed in the
                               AAGAM to 25 of the 56 grantees. We found that none of the files for the
                               25 grantees included transmittal letters to the grantees indicating the
                               corrective actions required, the time period for correction, and a
                               description of the consequences of not completing actions required. (We
                               did find occasional references in which the grantees were made aware of
                               specific actions required to resolve issues.) Additionally, 8 of the 15 files
                               of grantees that had payment-related special award conditions did not
                               include notification to the Payment Management System.
                               HRSA does not provide justification for retaining grantees whose names
                               appear on the Alert List more than 2 years
                               The AAGAM states that the placing agency is to provide justification to
                               the Office of Grants when keeping a grantee on the Alert List for more
                               than 2 years. At the time of the file review in August 2003, 7 of the
                               11 grantees that HRSA placed on the Alert List had been there longer
                               than 2 years. None of these seven files had justification to support
                               these grantees remaining on the Alert List.

                               In our discussions, grants officers described different processes for
                               retaining a grantee on the Alert List for more than 2 years. Two of the
                               four grants officers mentioned that they contact the grants official
                               responsible for contacting the Office of Grants to request that a grantee
                               remain on the Alert List for more than 2 years. The grants official
                               misunderstood the policy, however, and reported that HHS is supposed


O E I - 0 2 - 0 3 - 0 0 0 11   USE   OF THE   D E PA R T M E N TA L A L E R T L I S T   BY   HRSA      10
              F      I N D I N G     S
                               to contact HRSA to keep a grantee on the Alert List for more than 2
                               years, when the opposite is true.


               Grants officers do not use the information            Grants officers and officials report
            on the Alert List to make grant decisions and            that grant decisions are based on
             some report concerns about the information              their own judgments and not on
                                         on the Alert List           Alert List information.
                                                                     Specifically, one grants officer
                                                                     noted that they put special award
                               conditions on a grant based on their own concerns. One grants official
                               further noted that the decision to deny a grant is based on their own
                               reasons, not on whether the grantee is on the Alert List.

                               Several grants officers’ responses further suggest that they are
                               confident that their own decisionmaking adequately protects their
                               grants. As one grants officer reported, “. . . we’re pretty confident that
                               we are looking at things that are relevant to us; we’re not necessarily
                               looking for someone else’s guidance.” And, as one grants official
                               reported, “. . . just because someone else puts [the grantee] on the Alert
                               List doesn’t mean I agree with them.” Rather, as one grants officer
                               acknowledged, they take into account a number of factors such as the
                               type of organization and the need to get services out when making grant
                               decisions.
                               Grants officers and officials report concerns about the information on the
                               Alert List
                               In our discussions, three of the four grants officers reported that the
                               Alert List is “not at all useful.” Generally, these grants officers
                               explained that the Alert List does not provide current information and
                               that the information on the Alert List is not useful for making decisions
                               about grantees. One grants officer and one grants official also reported
                               that the Alert List is not always useful, in part because they do not
                               always know when the Alert List is updated and posted on the Intranet.

                               Our review of the Alert List also found that it did not always have
                               useful or complete information. The March 24, 2003, version of the
                               Alert List did not have reasons the grantees were placed on the Alert
                               List for 55 of the 314 grantees. In addition, the reasons that the
                               grantees were placed on the Alert List were not always helpful. For
                               example, reasons given included general statements such as “going
                               concern.” Further, for a few grantees the grantee name on the Alert
                               List was markedly different from the name on the grant award.




O E I - 0 2 - 0 3 - 0 0 0 11   USE   OF THE   D E PA R T M E N TA L A L E R T L I S T   BY   HRSA    11
   Δ                   R E C O M M E N D A T I O N S                                                




                               RECOMMENDATIONS
                               We determined that HRSA staff do not consistently adhere to policies
                               governing the use of the Alert List. This lack of consistency makes it
                               difficult to ensure that a grantee’s risk of programmatic and/or financial
                               failure is communicated to all agencies that award grants and that HHS
                               funds are appropriately safeguarded. Although grants officers note that
                               the Alert List has a number of limitations, it is critical for each agency
                               that awards grants to adhere to HHS policies to make the Alert List an
                               effective means of conveying grantee risk.
                               This review was conducted at a time when HRSA was consolidating and
                               centralizing its grants management functions and implementing an
                               automated grants management system. These changes may bring
                               greater consistency to its grants management functions and better
                               position HRSA to incorporate the following recommendations.
                               Specifically, we recommend that HRSA:
                               Ensure that grants officers follow Alert List policies
                               HRSA needs to make the Alert List a higher profile issue and stress
                               that grants staff need to follow Alert List policies. HRSA needs to
                               ensure that grants officers and grants officials follow policies for placing
                               grantees on the Alert List, checking the Alert List, consulting with the
                               agency that placed the grantee on the Alert List, monitoring grantees
                               with special award conditions, and removing or retaining Alert List
                               grantees when appropriate. HRSA also needs to ensure consistency in
                               placing grantees on the Alert List by providing guidance on high risk
                               designations and special award conditions.
                               Develop methods to ensure that grants officers follow Alert List policies
                               HRSA should develop methods to ensure that grants officers adhere
                               to Alert List policies.
                               o 	 Currently, grants officers have a checklist that includes checking
                                     the Alert List to determine whether the grantee is on the Alert
                                     List. HRSA may consider revising this checklist to include all
                                     Alert List policies and requiring grants officers to complete it for
                                     each grantee.
                               o 	 HRSA may consider implementing an internal file review to
                                     ensure that grants officers are documenting that they are
                                     following Alert List policies and using the Alert List
                                     appropriately.

O E I - 0 2 - 0 3 - 0 0 0 11   USE   OF THE   D E PA R T M E N TA L A L E R T L I S T   BY   HRSA           12
       R 	E C O                M M E N D A T                    I O N               S


                                   o 	 HRSA may implement a system to notify grants officers when
                                         2-year time periods expire.
                                   o 	 HRSA may consider providing additional guidance to grants
                                         officers and their staffs about the importance of using the Alert
                                         List and the need to adhere to policies.


                                   AGENCY COMMENTS
                                   In its comments to the draft report, HRSA notes that it met with
                                   Department staff to discuss its concerns with some of the report
                                   findings and that the Department concurs with HRSA’s use of applying
                                   specific conditions for short term compliance in the absence of a “high
                                   risk declaration” with grantee placement on the Departmental Alert
                                   List.

                                   HRSA further notes that some of the findings in the report may have
                                   resulted from a misunderstanding in terminology being used by HRSA
                                   staff and OIG reviewers. HRSA also believes that clarifications in
                                   Department policies concerning award conditions, issued subsequent to
                                   the OIG review, draw into question the validity of some of the report
                                   findings. HRSA notes that the new policies recognize circumstances
                                   where it is appropriate to apply conditions without placing grantees on
                                   the Departmental Alert List.

                                   More specifically, HRSA notes that the Department issued several
                                   AAGAM chapters, including section 2.04.104D (“Grant Awards”), which
                                   states that a grants officer may place award “restrictions” or “specific
                                   conditions” on an award to ensure short-term grantee compliance and
                                   that such restrictions may not rise to a level requiring the grantee to be
                                   designated as high risk and placed on the Alert List. HRSA states that
                                   the OIG may not have been aware of the various types of conditions
                                   which have been previously employed and which are now recognized in
                                   Department policy. The full text of HRSA’s comments is provided in
                                   Appendix B.


                                   OFFICE OF INSPECTOR GENERAL RESPONSE
                                   HRSA’s comments on our draft report do not respond to our specific
                                   recommendations. We hope that HRSA’s comments on the final report
                                   delineate specific actions HRSA plans to take in response to our findings
                                   and recommendations.

                                   In response to HRSA’s comments, we wish to clarify several aspects of
                                   our analysis. At the outset we should note that, contrary to HRSA’s
                                   understanding, we took into account AAGAM 2.04.104D (“Grant

O E I - 0 2 - 0 3 - 0 0 0 11       USE   OF THE   D E PA R T M E N TA L A L E R T L I S T   BY   HRSA        13
                               Awards”) in our analysis even though it was not in effect during most of
                               our fieldwork.

                               Moreover, we are aware that HRSA has the ability under current policy
                               to impose conditions of a type or level that do not require a high-risk
                               designation. However, the design of our study accounted for this
                               concern and eliminated those types of situations. Specifically, when we
                               reviewed all the terms and conditions of the grants in our sample that
                               were documented in the files, we identified the conditions that met the
                               criteria of AAGAM 2.04.104D(c) which are defined in AAGAM 2.01.101
                               and which warrant a designation of high risk and placement on the
                               Alert List. We included the special award conditions that reflected
                               more serious situations requiring placement on the Alert List.
                               Specifically, we included the following categories of conditions imposed
                               by HRSA: reimbursement payment method, financial or progress
                               reporting more frequently than quarterly, and the need for the
                               awarding office prior approval of a cost or activity. These conditions are
                               also identified as special award conditions in 45 CFR section 92.12.

                               In addition, as stated in the report, our review focused on grantees that
                               were already on the Alert List that had been placed by another agency
                               and/or had been recommended for placement on the Alert List by the
                               National External Audit Review Center because of a systematic audit
                               deficiency. Therefore, by design, the grantees in our review were those
                               that did not have a proven track record but had some history of poor
                               performance identified by another agency and/or by the National
                               External Audit Review Center.

                               Further, our review showed that the instances in which HRSA attached
                               a special award condition and did not place the grantee on the Alert List
                               were not to ensure short-term compliance or address an innocuous
                               situation. The following examples illustrate the types of situations that
                               we found in our review. In one file, documentation indicated that HRSA
                               had determined that “the grantee has an operating deficit and is not
                               eligible to apply for any other [HRSA] funding until a balanced budget
                               is achieved.” In another file, HRSA noted that the grantee “continues to
                               be plagued with financial concerns” which included $2.6 million in
                               liabilities. In another file, HRSA noted on the Notice of Grant Award
                               that it had serious concerns about the grantee’s lack of compliance with
                               special conditions related to the submission of its annual audits,
                               financial reports, and its final budget. We also found two instances in
                               which HRSA had designated the grantee as high risk but had not placed
                               the grantee on the Alert List in accordance with Department policy.



O E I - 0 2 - 0 3 - 0 0 0 11   USE   OF THE   D E PA R T M E N TA L A L E R T L I S T   BY   HRSA    14
                               We further note that HRSA’s comments only address the first finding of
                               our report. They do not address HRSA’s violations of other Alert List
                               policies including checking the Alert List, consulting with other
                               agencies to obtain information about grantees on the Alert List,
                               documenting certain monitoring activities for grantees on the Alert List,
                               and providing justification for retaining grantees on the Alert List.

                               Finally, the Alert List is fundamental to safeguarding Department
                               grant funds and is an important tool for agencies to use to share
                               concerns about particular grantees. However, the value of the Alert
                               List is diminished for all Department grantmaking agencies when
                               agencies fail to provide required information to the Alert List in
                               accordance with Department policies. As a member of the Federal
                               grantmaking community and a steward of Federal funds, HRSA has a
                               responsibility to protect both its own grants as well as those of other
                               awarding agencies in the Department.




O E I - 0 2 - 0 3 - 0 0 0 11   USE   OF THE   D E PA R T M E N TA L A L E R T L I S T   BY   HRSA   15
Δ           A P P E N D I X ~ A                                  



                               PART 74--UNIFORM ADMINISTRATIVE REQUIREMENTS FOR AWARDS AND
                               SUBAWARDS TO INSTITUTIONS OF HIGHER EDUCATION, HOSPITALS,
                               OTHER NONPROFIT ORGANIZATIONS, AND COMMERCIAL
                               ORGANIZATIONS; AND CERTAIN GRANTS AND AGREEMENTS WITH
                               STATES, LOCAL GOVERNMENTS AND INDIAN TRIBAL GOVERNMENTS

                               Special award conditions.
                               (a) 	The HHS awarding agency may impose additional requirements as
                                    .needed, without regard to § 74.4, above, if an applicant or recipient:

                                        (1) 	has a history of poor performance,

                                        (2) 	is not financially stable,

                                        (3) 	has a management system that does not meet the standards
                                             prescribed in this part,

                                        (4) 	has not conformed to the terms and conditions of a previous
                                             award, or

                                        (5) 	is not otherwise responsible.

                               (b) 	When it imposes any additional requirements, the HHS awarding
                                    .agency must notify the recipient in writing as to the following:

                                        (1) 	the nature of the additional requirements,

                                        (2) 	the reason why the additional requirements are being

                                             /imposed, 


                                        (3) 	the nature of the corrective actions needed,

                                        (4) 	the time allowed for completing the corrective actions, and

                                        (5) 	the method for requesting reconsideration of the additional
                                             /requirements imposed.

                               (c) 	The HHS awarding agency will promptly remove any additional
                                    requirements once the conditions that prompted them have been
                                    corrected.




O E I - 0 2 - 0 3 - 0 0 0 11   USE   OF THE   D E PA R T M E N TA L A L E R T L I S T   BY   HRSA          16
        A       P      P E N D   I X ~          A



                                 PART 92--UNIFORM ADMINISTRATIVE REQUIREMENTS FOR GRANTS AND
                                 COOPERATIVE AGREEMENTS TO STATE AND LOCAL GOVERNMENTS

                                 Sec. 92.12 Special grant or subgrant conditions for “high risk” grantees.

                                 (a) 	A grantee or subgrantee may be considered as high risk if an
                                      .awarding agency determines that a grantee or subgrantee:
                                          (1) 	has a history of unsatisfactory performance; or
                                          (2) 	is not financially stable; or
                                          (3) 	has a management system which does not meet the
                                              .management standards set forth in this part; or
                                          (4) 	has not conformed to terms and conditions of previous awards;
                                              .or
                                          (5) 	is otherwise not responsible; and if the awarding agency
                                              .determines that an award will be made, special conditions
                                              .and/or restrictions shall correspond to the high risk condition
                                              .and shall be included in the award.
                                 (b) Special conditions or restrictions may include:
                                          (1) 	payment on a reimbursement basis;
                                          (2) 	withholding authority to proceed to the next phase until
                                              /receipt of evidence of acceptable performance within a given
                                              /funding period;
                                          (3) 	requiring additional, more detailed financial reports;
                                          (4) 	additional project monitoring;
                                           (5) 	requiring the grantee or subgrantee to obtain technical or
                                               .management assistance; or
                                          (6) 	establishing additional prior approvals.
                                 (c) 	If an awarding agency decides to impose such conditions, the
                                      awarding official will notify the grantee or subgrantee as early as
                                      possible, in writing, of:
                                          (1) 	the nature of the special conditions/restrictions,
                                          (2) 	the reason(s) for imposing them,
                                           (3) 	the corrective actions which must be taken before they will be
                                               .removed and the time allowed for completing the corrective
                                               .actions, and
                                           (4) 	the method of requesting reconsideration of the conditions/
                                               .restrictions imposed.


O E I - 0 2 - 0 3 - 0 0 0 11     USE   OF THE   D E PA R T M E N TA L A L E R T L I S T   BY   HRSA          17
    Δ                  A P P E N D I X ~ B                                  





O E I - 0 2 - 0 3 - 0 0 0 11   USE   OF THE   D E PA R T M E N TA L A L E R T L I S T   BY   HRSA   18

        A       P      P E N D   I X        ~            B            





O E I - 0 2 - 0 3 - 0 0 0 11     USE   OF THE   D E PA R T M E N TA L A L E R T L I S T   BY   HRSA   19

        A       P      P E N D   I X        ~            B            





O E I - 0 2 - 0 3 - 0 0 0 11     USE   OF THE   D E PA R T M E N TA L A L E R T L I S T   BY   HRSA   20

        A       P      P E N D   I X        ~            B            





O E I - 0 2 - 0 3 - 0 0 0 11     USE   OF THE   D E PA R T M E N TA L A L E R T L I S T   BY   HRSA   21

AP P                 AE CN K
                           D IN XO ~ WB L E D G M E N T S
 Δ                                                                                                  





                               This report was prepared under the direction of Jodi Nudelman,
                               Regional Inspector General for Evaluation and Inspections in the New
                               York regional office. Other principal Office of Evaluation and
                               Inspections staff who contributed include:

                               Vincent Greiber, Team Leader
                               Natasha Besch, Program Analyst

                               Sonjeya Fitzgerald, Program Analyst

                               Nicole Gillette, Program Analyst

                               Alan Levine, Program Specialist

                               Elise Stein, Director, Public Health and Human Services Branch

                               Barbara Tedesco, Mathematical Statistician




O E I - 0 2 - 0 3 - 0 0 0 11   USE   OF THE   D E PA R T M E N TA L A L E R T L I S T   BY   HRSA       22
